~

~

:~

..

~1 ~ ~ 7I

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL,AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL,
Respondent.
On Writs Of Certiorari To The
United States Court Of Appeals
For The Ninth Circuit
BRIEF OF AMICI CURIAE THE CHRISTIAN AND
MISSIONARY ALLIANCE,CHERRY HILLS
COliZTVV~ii.Tl\IITY C~IlJ1~,~I~, ~CI~FiISTIAN CARE
MINISTRY,CR,ISTA MINISTRIES,EVANGELICAL
COUNCIL FOR FINANCIAL ACCOUNTABILITY,
FELLOWSHIP OF CHRISTIAN ATHLETES,
MISSIONS DOOR,MOUNT HERMON
ASSOCIATION,ORCHARD ALLIANCE,PINE COVE,
POTNT LOMA NAZARENE UNIVERSITY,THE
CATHOLIC DIOCESE OF COLORADO SPRINGS,
THE CROWELL TRUST,THE NAVIGATORS,TRANS
WORLD R,A.DIO,AND TYNDALE HOUSE
MINISTRIES IN SUPPORT OF PETITIONERS
n
STUART <T. LARK

SHERMAN &HOWARD L.L.C.

Counsel ofRecord

90 S. Cascade Ave., Suite 1500
Colorado Springs, CO 80903
(719)448-4036
dark@shermanhoward.com

Attorney forAmici Curiae

COCKLE LEGAL BRIEFS(800)225-6964
WW W.000KI,ELEGALBRIEFS.COM

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES .................................

iii

STATEMENT OF INTEREST OF AMICI CURIAE.................................................................

1

SUMMARY OF ARGUMENT ..............................

7

ARGUMENT........................................................ 12
I. Constitutional principles of religious deference and neutrality dictate a "ministerial exception" that applies to all positions
that define, exercise or express an organization's religious character or mission...... 12
A. These principles protect both activities and association as forms of religious exercise and expression ............. 12
B. The "ministerial exception" extends to
employees who perform functions that
define, exercise or express the religious character or mission of their employers ................................................. 16
II. Formulating the "ministerial exception"
as an "important religious functions" test
invites a religiosity inquiry that violates
constitutional principles of religious deference and neutrality, and narrows the
exception.................................................... 19
A. Courts cannot measure the religiosity
of various job duties ............................ 19
B. Courts cannot favor traditional religious positions ..................................... 23

11 .

TABLE OF CONTENTS —Continued
Page
C. Courts cannot exclude functions.merely
because they are similar to secular or
commercial activities ............................ 26
D. Courts can inquire into whether the organization's representations regarding
a position's role in the organization's religious exercise are bona fide ................ 29

CONCLUSION..................................................... 31

111

TABLE OF AUTHORITIES
Page
FEDERAL CASES

Boy Scouts ofAmerica v. Dale,
530 U.S. 640(2000) .................................................15
Burwell v. Hobby Lobby,
134 S.Ct. 2751(2014)..................................15, 28,30
Church of the Lukumi Babalu
Aye, Inc. v. City ofHialeah,
508 U.S. 520(1993) .................................................22
Colorado Christian University v. Weaver,
534 F.3d 1245(10th Cir. 2008)..........................22, 24
Corp. ofPresiding Bishop v. Amos,
483 U.S. 327(1987) ................................. 9, 12, 13,20
Employment Division U. Smith,
494 U.S. 872(1990) .................................................22
Fowler v. Rhode Island,
345 U.~. 67(1953) ..........:........................................23
Hosanna-Tabor Evangelical Lutheran
Church &School v. EEOC,
565 U.S. 171(2012) .........................................passim
Leboon v. Lancaster Jewish
Community CenterAss'n,
503 F.3d 217(3d Cir. 2007).....................................27
NLRB v. Catholic Bishop,
440 U.S. 490(1979) ...........................:.....................21
New York v. Cathedral Academy,
434 U.S. 125(1977) ...........................................19, 20

1V

TABLE OF AUTHORITIES —Continued
Page
Roberts v. United States Jaycees,
468 U.S. 609(1984) .................................................14
U.S. v. Ballard,
322 U.S. 78(1944)...................................................29
University of Great Falls v. NLRB,
278 F.3d 1335(D.C. Cir. 2002)........ 21, 24, 28, 30, 31
Widmar v. Vincent,
454 U.S. 263(1981) ...............................20, 21, 23, 30
Wisconsin v. Yoder,
406 U.S. 205(1972)...........................................13, 14
STATE CASES

Grand County Board of Commissioners v.
Colorado Property Tax Administrator,
401 P.3d 561(Colo. Ct.App.January 14,2016)...........22

1
STATEMENB'OF INTEREST
OF AMICI CURIAEl
Amici constitute a diverse group of religious organizations and collectively they conduct many different types of activities including social services, health
care sharing, secondary and higher education, camping, publishing,financial services and Christian evangelism, discipleship, foreign missions, congregational
care, and Bible teaching.
Amici conduct all of their activities as an exercise
of their Christian beliefs and in furtherance of their
respective Christian missions. In addition, and importantly,amici are guided by their beliefs to carry out
their activities as associations oflike-minded believers,
and doing so is an expression of those beliefs. Indeed,
the experience of community within such religious associations often inspires and energizes their service to
others. Moreover, the shared religious beliefs among
those carrying out amici's activities also ensure that
these activities are conducted in a manner that distinctly expresses and exercises the organization's religious convictions.
Just as amid hold a variety of distinct beliefs
within the broader framework of Christianity, .they
also take different approaches to exercising and
1 The parties have provided written consent to the filing of
this brief. No counsel for a party authored this brief in whole or
in part, and no counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amid curiae, their members, or their counsel
made a monetary contribution to its preparation or submission.

0

expressing their beliefs. Arr~ici apply different labels to
their employee positions, require different qualifications and assign different duties. But notwithstanding
these differences, amici all require certain employees
to define or transmit to others the distinct religious
convictions of their respective organizations. These
employees bear the responsibility to determine the activities and policies that will best exercise and express
their respective organization's beliefs (which they also
define). Therefore, the selection by amici of such employees lies at the heart of their religious exercise and
expression.
The decision in this case could have significant implications for the foundational religious liberty interest amici share in selecting certain employees without
governmental interference. As a result, amid are respectfully submitting this briefto explain why constitutional principles of religious deference and neutrality
extend the "ministe vial excep+ion" to positions.that define, exercise or express the religious beliefs of an organization. These same principles also prohibit courts
from measuring the religiosity ofjob functions.
Additional information about each of the amid is
as follows:
The Christian and IVlissionary Alliance is a
church denomination and missionary organization
with over 400,000 members in more than 2,000
churches in all 50 states. In addition, there are over
800 missionaries in approximately 60 nations supported by the organization. Based in Colorado Springs,

3
the organization also sponsors a number ofeducational
institutions and retirement centers around the country.
Christian Care Ministry("CCM")is a nonprofit
organization that helps Christians share their lives,
faith, talents and resources. Among other programs,
CCM operates Medi-Share,which is a health care sharing ministry with approximately 400,000 members who
share each other's eligible medical bills and, most importantly, encourage and lift one another up in prayer.
Cherry Hills Community Church ("CHCC")is
a vibrant church of everyday people who come together
in many ways — in exploring and learning about faith,
in raising kids and strengthening marriages, and in
discovering the fullness of life God desires for each of
us. CHCC also operates a Christian school providing
education for students from preschool through middle
school.
CRISTA Ministries ("CRISTA") was founded in
1948 and its corporate offices are in Seattle. CRISTA's
mission is to love God by serving people —meeting
practical and spiritual needs — so that those it serves
will be built up in love, united in faith and maturing in
Christ. CRISTA has 2 senior living facilities (over 600
residents), 3 broadcasting stations, 2 K-12 Christian
schools,a school for at-risk teens,2 camps,a veterinary
mission and an international relief organization operating as World Concern. World Concern works with
communities in some ofthe most neglected areas ofthe
world, including Myanmar and Chad.

0

Evangelical Council for financial Accountability ("ECFA") provides accreditation to leading Christian nonprofit organizations that faithfully demonstrate
compliance with established standards for financial
accountability, fundraising and board governance.
ECFA members include Christian ministries, denominations, churches, educational institutions and other
tax-exempt 501(c)(3) organizations. ECFA member organizations collectively represent over $29 billion in
annual revenue.
Fellowship of Christian Athletes ("FCA") is a
Christian organization that has been challenging
coaches and athletes on the professional, college, high
school,junior high and youth levels to use the powerful
medium of athletics to impact the world for Jesus
Christ since 1954. FCA's mission is to present to
coaches and athletes, and all whom they influence, the
challenge and adventure of receiving Jesus Christ as
Savior and Lord, serving Him in their relationships
and in the fellowship of the church.
Missions Door is a Christian organization that
assists local churches and Christ-followers to evangelize, disciple and plant churches among the unreached
people of our world. Since its founding in 1948, Missions Door has developed ministries in Latin America,
Africa and Asia, as well as ministry among immigrants
in the United States. Missions Door has established a
culturally diverse ministry team in pursuit of the organization'~ goal of bringing new followers of Jesup
who join together in communities of faith.

h'~

Mount Hermon Association lovingly creates experiences where guests can encounter Jesus and leave
refreshed, renewed and transformed by the Love of
God.at its two locations in California. Since its founding in 1906, Mount Hermon has been a welcoming
place where people from all walks of life can put aside
distractions and focus on what is most important: their
relationships with one another and with God.
Orchard Alliance is a robust financial stewardship ministry that provides churches,individuals,families, and other like-minded organizations with a wide
range of products and services. With a mission to equip
God's stewards for greater Kingdom impact,the organization helps Christians develop the best plan of stewardship when making cash or non-cash gifts to their
church or other ministries and facilitates these gifts
using tools like charitable gift annuities, donor advised
funds, trusts, endowments, and much more. Orchard
Alliance also prnvides church financing, church project
advisement, savings, and investment products.
Pine Cove is a Christian ministry organization
that offers Christian camping programs and facilities
year round in Texas and other states. Pine Cove serves
children, youth, and families each summer, and provides outdoor education, retreats and conferences in
other seasons, accommodating over 20,000 visitors
each year. Pine Cove employs over 160 full-time and
part-time resident staff, and over 1,500 college-age
staff work at the campy every summer.

C
Point Loma Nazarene University ("PLNU")is
a Christian liberal arts college based near San Diego
and founded in 1902 as a Bible college by the Church
of the Nazarene. PLNU serves more than 3,500 students in more than 60 undergraduate areas of study
and graduate programs. PLNU offers many ministry
opportunities, including chapel, community and discipleship ministries, international and worship ministries.
Trans World Radio ("TWR") is a global media
outreach that engages millions in 160 countries with
biblical truth. Based in Cary, North Carolina, TWR
ministries speak fluently in more than 200 languages
and dialects. Together with international partners,
local churches and other ministries,TWR provides relevant programming, discipleship resources and dedicated workers to spread hope to individuals and
communities around the globe.
The Catholic Diocese of Colorado Springs covers ten counties and approximately 15,500 square
miles in central Colorado. The Diocese serves more
than 176,000 Catholics in 39 parishes and missions.
The Diocese also provides education for more than
9,000 students.
The Crowell Trust (the "Trust") supports the
teaching and active extension of the doctrines of Evangelical Christianity through approved grants to qualified organizations. Since its founding in 1927 by Henry
Parsons Crowell and Susan Coleman Crowell, the
Trust continues to fulfill its ministry purposes through

7
the issuance of grants to qualified Evangelical organizations.
The Navigators is an international, Christian
ministry established in 1933.The Navigators are characterized by an eagerness to introduce Jesus to those
who don't know Him, a passion to see those who do
know Jesus deepen their relationship with Him,and a
commitment to training Jesus' followers to continue
this nurturing process among the people they know.
Based in Colorado Springs,the Navigators'stafffamily
— over 4,600 strong —includes over 70 nationalities.
Tyndale House Ministries operates a publishing ministry that was founded in 1962 by Dr. Kenneth
N. Taylor as a means of publishing The Living Bible.
Tyndale publishes Christian fiction, nonfiction, children's books, and other resources, including Bibles in
the New Living Translation (NLT). Tyndale products
include many New York Times best sellers, including
the popular Left behind fiction series by Tim LaHaye
and Jerry B. Jenkins.

~

.

The question in this case is whether an employee
that carries out "important religious functions" can
bring a discrimination claim against her religious employer. To answer this question, the first part of this
brief argues that the "ministerial exception" adopted
by this Court in Hosanna-Tabor Evangelical Lutheran
Church &School v. EEOC,565 U.S. 171 (2012) should

n
..
extend to all positions that contribute to defining, exercising or expressing the employer's religious beliefs.
The brief also discusses by way ofexamples the diverse
types of activities in which religious organizations engage and the foundational role various types of positions play in the religious exercise and expression of
all types of religious organizations.
The second part of this brief explains why this
Court should avoid characterizing the "ministerial exception" as an "important religious functions" test.
Such a formulation invites courts to inquire into the
religiosity of various positions, an inquiry that leads to
excessive entanglement with religion and religious favoritism. Instead, courts should defer to the bona fide
representations of religious organizations regarding
the functions of their employees that define, exercise
or express their religious beliefs and mission.
1. Constitutional principles of religious deference and neutrality dictate a "ministerial
exception" that applies to all positions that
define,exercise or express an organization's
religious character or.mission.
Many churches and other religious organizations
are defined by the common religious commitment of
some or all of their members and employees. As Justice
Brennan wrote in this Court's leading case upholding
religious hiring rights:"determining that certain activities are in furtherance of an organization's religious
mission, and that only those committed to that mission

E

should conduct them, is ... a means by which a religious community defines itself." Corp. of Presiding
Bishop v. Amos,483 U.S. 327, 342(1987)(Brennan, J.,
concurring). By associating with fellow believers in
carrying out their activities, religious organizations
both exercise and express their religious beliefs.
A religious organization's ability to define itself
and to exercise and express its beliefs depends primarily upon its unfettered right to select those employees
responsible for such functions. It is these employees
who make the critical determinations referred to above
by Justice Brennan. Because the selection of these employees is central to each organization's religious exercise and expression,the "ministerial exception" should
apply to all such employees.
Moreover, the fact that an organization has conferred aministry leadership title on a particular position (or the individual holding the position) may create
a presumption that the position is subject to the exception. But no particular title can be required: depending
upon how an organization defines, exercises or expresses its beliefs, the exception can apply as much to
school teachers, Bible study leaders, missionaries, worship team members, administrators, program directors, presidents, and counselors,for example, as it does
to ministers, rabbis, priests, gurus,imams, and vicars.

10
2. Formulating the "mini~te~ial exception" a~
an "important religious functions" test in~
vites a religiosity inquiry that violates constitutional principles of religious deference
and neutrality, and narrows the exception.
Principles of religious deference and neutrality
prohibit courts from applying the exception only to
those positions that they determine, based on their
own standards, to be sufficiently religious. Government officials have no competence or authority to
measure the religiosity of an organization's activities
based on some litmus test of perceived religious content, and using such a test invariably favors orthodox
religious activities over less conventional religious activities.
If not properly interpreted, the "important religious functions" formulation will reinforce the flawed
premise that an activity is not religious if it is "secular." This ~x°en~ise Lrivializ~s the religious conviction
which underlie the commitment of many religious organizations to provide educational and/or social services. For instance, the Bible teaches that true religion
consists of taking care of widows and orphans (it does
not mandate "incorporating religion" into such care).
That a secular organization might embrace a similar
mission for nonreligious reasons does not diminish the
religious significance of this Biblical mandate to a religious organization. A "ministerial exception" that excludes positions engaged in, for instance, educational
or social service activities would require religious organizations which believe they are called to provide

11
such services to sacrifice their religious liberty in order
to fulfill their religious duties.
Finally, a court may consider whether the organization has made false or materially inconsistent representations regarding how the functions of a position
define, exercise or express the organization's religious
beliefs. But to the extent the religious character of duties are relevant, such character must be based on the
organization's purpose for the duties and.not on the
court's subjective measure of their apparent religious
qualities.
Amici respectfully request this Court to affirm
that the "ministerial exception" applies to all positions
that define, exercise or express an organization's religious beliefs. In addition,the determination of such positions must turn not on a court's view of whether the
"functions" are sufficiently religious, bud rather on
whether the organization's representations regarding
the functions of the position are bona fide.

12
I.~.l~i~~-~~M~M-y
I.

Constitutional principles of religious deference and neutrality dictate a "ministerial exception" that applies to all positions
that define, exercise or express an organization's religious character or mission.
A. These principles protect both activities
and association as forms of religious
exercise and expression.

The short descriptions of amid in the Statement
of Interests section of this brief reveal that amid,like
many other religious organizations, engage in a wide
variety of activities serving the physical, emotional
and spiritual needs of people.Amici and other religious
organizations view their respective activities, whether
serving the poor or elderly or marginalized, or providing education, or offering distinctly religious worship
or evangelism,both as service to God and as an expression ofreligious faith. As explained by ~uatice Brennan
in Amos:"Churches often regard the provision of[community] services as a means of fulfilling religious duty
and of providing an example of the way of life a church
seeks to foster...." 483 U.S. at 344 (Brennan, J., concurring).
In addition,for amid and other organizations, the
carrying out of certain activities in service to God and
to society, and the associating with fellow believers, are
intertwined. Indeed, the latter often energizes the former. To this end,religious organizations may adopt religious requirements for some or all of their workers.

13
Such religious associational policies help these organizations ensure that their activities,some of which may
be similar to those of secular organizations, maintain
their distinctive religious character. The point is not
just that services are being provided, but that services
are being provided by religious followers as an expression and exercise of their religious beliefs.
In the Amos case, Justice Brennan also described
more fully the associational aspect of religious exercise. He observed that:
religious organizations have an interest in autonomy in ordering their internal affairs so
that they may be free to: select their own leaders, define their own doctrines, resolve their
own disputes, and run their own institutions.
Religion includes important communal elements for most believers. They exercise their
religion through religious organizations... .
For many individuals, religious activity derives meaning in large measure from participation in a larger religious community. Such
a community represents an ongoing tradition
of shared beliefs, an organic entity not reducible to a mere aggregation of individuals.
Id. at 341-43(1987)(Brennan,J., concurring)(internal
quotation omitted).
Similarly, in Wisconsin v. Yoder, 406 U.S. 205, 210
(1972), this Court observed that "Old Order Amish
communities today are characterized by a fundamental belief that salvation requires life in a church community separate and apart from the world and worldly

14
influence. This concept of life alooffrom the world and
its values is central to their faith." This Court further
noted that the Amish base this concept on "their literal
interpretation ofthe Biblical injunction from the Epistle Of Paul to the Romans,`be not conformed to this
world...."'Id. at 216.
Different religious organizations,even those ofthe
same general faith, will reach different conclusions regarding the extent of associational requirements of
their faith. Perhaps not many religious organizations
believe the requirements apply as broadly as do the
Amish. But the important point is that in each case
this determination is based on religious beliefs as interpreted and applied by the religious organization,
and is therefore religious exercise.
Moreover,the full exercise and,separately,expression ofreligion comes notjust from conducting such activities, but from conducting them as an association of
like-minded believers. That associations may have an
expressive component entitled to protection has long
been recognized by this Court. In Roberts v. United
States Jaycees,468 U.S. 609,622(1984), this Court held
that:
...collective effort on behalf of shared goals
is especially important in preserving political
and cultural diversity and in shielding dissident expression from suppression by the majority. Consequently, ...implicit in the right
to engage in activities protected by the First
Amendment [is] a corresponding right to associate with others in pursuit of a wide

15
variety of political, social, economic, educational, religious, and cultural ends.
See also Boy Scouts ofAmerica v. Dale, 530 U.S. 640,
649,655 (2000).
In a recent religious liberty case before this Court,
Justice Kennedy described the foundation of this country's commitment to religious liberty as follows:
In our constitutional tradition,freedom means
that all persons have the right to believe or
strive to believe in a divine creator and a divir~e law. For those who choose this course,free
exercise is essential in preserving their own
dignity and in striving for aself-definition
shaped by their religious precepts. Free exercise in this sense implicates more than just
freedom of belief. It means,too,the right to express those beliefs and to establish one's religious (or nonreligious) self-definition in the
political, civic, and economic life of our larger
community.
Burwell v. Hobby Lobby, 134 S.Ct. 2751, 2785 (2014)
(Kennedy, J., concurring). This constitutional freedom
or religious autonomy necessarily extends from individuals to faith communities, and it protects the unfettered right of such communities to select those
individuals who define or carry out the religious beliefs
and exercise of the community.

~C:~

B. The "ministerial exception" extends to
employees who perform functions that
define, exercise or express the religious
character or mission of their employers.
In Hosanna-Tabor, this Court held that courts
cannot adjudicate employment discrimination claims
against religious employers brought by certain of their
employees.Hosanna-Tabor,565 U.S. at 188.This Court
noted that the Free Exercise clause "protects a religious group's right to shape its own faith and mission
through its appointments" and that employment nondiscrimination laws "interfere[] with the internal governance of the church, depriving the church of control
over the selection of those who will personify its beliefs." Id.
This Court did not, however, define the scope of
employees to whom this exception agplies. Instead,
this Court merely concluded that the exception applied
to tree e~iployee iii the case because, among other
things,she was a commissioned minister and her position included "important religious functions." Id. at
192. Justices Alito and Kagan in a concurring opinion
asserted that the exception should not be limited to
ministers but instead should apply to "any employee
who leads a religious organization, conducts worship
services or important religious ceremonies or rituals,
or serves as a messenger or teacher of its faith." Id. at
199 (Alito, J., concurring).
What distinguishes these positions is not their formal title, or the specific job training required, but

17
rather the role they play in defining, exercising or
expressing the religious beliefs of the organization.
Moreover, these positions may focus either on the organizational or associational aspects of religious exercise and expression, or on specific activities, or both.
More specifically, these types of positions may perform
one or more of the following functions:
Organizational leadership, which may include
the responsibility to determine how the religious organization exercises its beliefs by
associating as a faith community (e.g., by
defining the faith-based standards for employees and other members of the faith
community). Employees with organizational
leadership functions may also (or separately)
be responsible for overseeing some or all of
the activities and finances ofthe organization.
In addition, such employees may have authority to define the organization's religious beliefs. Employees fulfilling these functions may
serve in management positions or as directors
ofthe organization's various programs and activities.
Conducting other ministry activities that exercise or express the organization's beliefs or
that carry out the mission ofthe organization.
Employees responsible for conducting such
activities are the hands and feet, and often the
public face, of the organization. The scope of
their activities is as broad as, and indeed
broader than, the range of activities carried
out by amici. Such functions could include,
among many others, teaching at any level

(including on "secular" subjects), leading
studies of religious texts such as the Bible,
theological research and training, preaching,
producing devotional or other materials reflecting religious beliefs, leading worship in a
congregational service, serving the poor and
needy,providing health care,conducting liturgical or sacerdotal services, providing pastoral
care or spiritual counseling, financial stewardship and discipleship.
Employees performing any of these functions bear
the responsibility of determining or carrying out activities and associational policies that exercise or express
the religious beliefs of their respective organizations.
For these reasons, a religious organization's selection
of its employees who contribute to defining, exercising
or expressing its religious beliefs lies at the heart ofits
religious expression and exercise.
The positions that carry out these functions will
vary widely among different religious employers, both
in terms of position titles and in terms of specific duties. Therefore, in applying the exception doctrine,
courts should focus not on titles or training but on the
substantive role that the employee fills in defining, exercising or expressing the beliefs of the religious employer.

19
II. Formulating the "ministerial exception" as
an "important religious functions" test invites areligiosity inquiry that violates constitutional principles of religious deference
and neutrality, and narrows the exception.
The foregoing roles or functions to which the "ministerial exception" applies could reasonably be characterized as "important religious functions." But amici
note that the wording of this formulation could have
the effect of replacing the intended focus on how the
functions contribute to an organization's religious exercise with a focus on the religiosity of the functions.
Such a shift in focus would undermine the purpose of
the "ministerial exception" and lead into a constitutional quagmire.
A. Courts cannot measure the religiosity
of various job duties.
This Court has repeatedly held that government
officials have no competence or Constitutional authority to interpret or apply religious beliefs, or to determine based on their own standards the religious
significance of various activities. In New York v. Cathedral Academy, 434 U.S. 125 (1977), for example, this
Court struck down a statute which required government officials to "review in detail all expenditures for
which reimbursement is claimed,including all teacherprepared tests, in order to assure that state funds are
not given for sectarian activities." Id. at 132. This
Court noted that the requirement would place religious schools "in the position of trying to disprove any

20
religious content in various classroom materials" while
at the same time requiring the state "to undertake a
search for religious meaning in every classroom examination offered in support of a claim."Id. at 132-33(emphasis added).
Ten years later, this Court upheld a statutory religious exemption that applied to all activities of a religious organization, not just its religious activities.
Corp. ofPresiding Bishop v. Amos,483 U.S. 327(1987).
This Court noted that"Congress' purpose in extending
the exemption was to minimize governmental `interfer[ence] with the decision-making process in religions."' Id. at 336. Further, this Court observed that
"[t]he line [between religious and secular activities] is
hardly a bright one and an organization might understandably be concerned that a judge would not understand its religious tenets and sense of mission."Id.
Religious deference applies notjust to distinctions
between religious and secular activities, but also to different types of religious activities. In Widmar v. Vincent,454 U.S. 263,269 n.6(1981),this Court rejected a
proposal to permit students to use buildings at a public
university for all religious expressive activities except
those constituting "religious worship." This Court observed that the distinction between "religious worship"
and other forms of religious expression "[lacked] intelligible content," and that it was "highly doubtful that
[the distinction] would. lie within the judicial competence to administer." Id. Indeed,"[m]erely to draw the
distinction would require the [State] —and ultimately
the Courts — to inquire into the significance of words

21
and practices to different religious faiths, and in varying circumstances by the same faith. Such inquiries
would tend inevitably to entangle the State with religion in a manner forbidden by our cases." Id.; see also
id. at 272 n.11 (noting the difficulty of determining
which words and activities constitute religious worship due to the many and various beliefs that constitute religion).
These same principles apply to the religious character of an organization. The Court of Appeals for the
D.C. Circuit struck down a "substantial religious character" test used by the National Labor Relations Board
to determine whether it could exercise jurisdiction
over a religious organization. University of Great Falls
v. NLRB,278 F.3d 1335 (D.C. Cir. 2002). In evaluating
a religious school, for instance, the test required the
NLRB to consider "such factors as the involvement of
the religious institution in the daily operation of the
school, the degree to which the school has a religious
mission and curriculum,and whether religious criteria
are used for the appointment and evaluation of faculty." Id. (quotation omitted). The court held that the
"very process ofinquiry"into the "`religious mission' of
the University," as well as "the Board's conclusions
have implicated [] First Amendment concerns...."Id.
at 1341 (citing NLRB v. Catholic Bishop,440 U.S. 490,
502 (1979)). The court concluded that the test was fatally flawed because it "boil[ed] down to `[I]s [an institution] sufficiently religious?"'Id. at 1343.
Similarly, the Tenth Circuit Court of Appeals in
2008 struck down a Colorado statutory distinction

22
between "pervasively sectarian" and other religious
schools. Colorado Christian University v. Weaver, 534
F.3d 1245(10th Cir. 2008). The Tenth Circuit observed
that the statutory test criteria required "intrusive governmental judgments regarding matters of religious
belief and practice." Id. at 1256. The court concluded
the test criteria were inconsistent with this Court's decisions precluding states from distinguishing among
religious activity "on the basis of intrusive judgments
regarding contested questions of religious beliefs or
practice." Id. at 1261; see also id. at 1263 (the "First
Amendment does not permit government officials to sit
as judges of the `indoctrination' quotient of theology
classes.").2
As recognized in these cases, the extent of distinctly religious content in a particular activity is not
a reliable indicator of the activity's religious character.
Bible reading is a religious activity if performed out of
a desire to know and obey God, but it is not if performed merely as a study of literature. Eating bread
and drinking wine is a religious activity if performed
as part of a communion service, but it is not if performed merely to satisfy physical needs or desires. Ingesting peyote and killing chickens are generally not
religious activities, but they become so when conducted
as a sacrament in certain religions. Employment Division v. Smith, 494 U.S. 872 (1990); Church of the
2 See also Grand County Board ofCommissioner's v. Colorado
Property Tax Administrator, 401 P.3d 561, 567 (Colo. Ct. App.
January 14, 2016)(noting that "[i]t is not our place to undertake
an examination of Christian doctrine to determine whether hiking is `overtly Christian' enough to count as a religious activity.")

23
Lukumi Babalu Aye, Inc. v. Hialeah, 508 U.S. 520
(1993). The purpose, not the content, is what matters.
B. Courts cannot favor traditional religious positions.
Courts have held that religiosity tests result not
only in prohibited entanglement, but also in religious
favoritism. In Fowler v. Rhode Island,345 U.S.67(1953),
this Court struck down a city ordinance that in critical
respects was the opposite of the proposed policy rejected in the Widmar case discussed above. Specifically,
the ordinance permitted churches and similar religious bodies to conduct worship services in its parks,
but it prohibited religious meetings. Id. at 69. The ordinance resulted in the arrest of a Jehovah's Witness
as he addressed a peaceful religious meeting. The
Court held that the distinction required by the ordinance between worship and an address on religion was
inherently a religious question and invited discrimination:
Appellant's sect has conventions that are different from the practices of other religious
groups. Its religious service is less ritualistic,
more unorthodox, less formal than some....
To call the words which one minister speaks
to his congregation a sermon, immune from
regulation, and the words of another minister
an address,subject to regulation,is merely an
indirect way of preferring one religion over
another.
Id. at 69-70.

24
In Colorado Christian University, the Tenth Circuit held that "[b]y giving scholarship money to students who attend sectarian —but not `pervasively'
sectarian —universities, Colorado necessarily and explicitly discriminates among religious institutions, extending scholarships to students at some religious
institutions, but not those deemed too thoroughly `sectarian' by governmental officials." 534 F.3d at 1258.
The court further noted that "the discrimination is expressly based on the degree ofreligiosity of the institution and the extent to which that religiosity affects its
operations, as defined by such things as the content of
its curriculum and the religious composition of its governing board."Id. at 1259(emphasis added).
Similarly, the court in University of Great Falls
held that:
To limit the ...exemption to religious institutionswith hard-nosed proselytizing,that limit
tY~eir enrollment io ~ne~Ybers of their ~r•eligion,
and have no academic freedom, as essentially
proposed by the Board in its brief, is an unnecessarily stunted view of the law, and perhaps even itself a violation of the most basic
command of the Establishment Clause —not
to prefer some religions(and thereby some approaches to indoctrinating religion) to others.
278 F.3d at 1346; see also Hosanna-Tabor Evangelical
Lutheran Church &School v. EEOC,132 S.Ct.694,711
(2012)(Thomas, J., concurring)("(j]udicial attempts to
fashion a civil definition of`minister' through a brightline test or multi-factor analysis risk disadvantaging

25
those religious groups whose beliefs, practices, and
membership are outside of the `Mainstream' or unpalatable to some."); id. at 712 (Auto J., concurring)
("[b]ecause virtually every religion in the world is represented in the population of the United States, it
would be a mistake ifthe term `minister'or the concept
of ordination were viewed as central to the important
issue of religious autonomy that is presented in cases
like this one.").
Because ofthe many different types ofreligious organizations,it is not difficult to see how classifying employee positions based on a court's view of religious
characteristics leads to favoritism. For instance, suppose a religious institution expresses its religious
value of caring for the needy by providing meals and
shelter, and that the theological tradition of this institution emphasizes "teaching by example" over preaching. For such an organization, religious exercise may
cc~r~sist ~arimaril~T ~f providing nnea~s and shelter. I~c~w~
ever, because courts are not competent to interpret the
institution's doctrine, they cannot conclude based on
this doctrine that the activities reflect religious values.
So instead, they may conclude based on their own conceptions of orthodoxy that the activities are not religious. But this conclusion favors one religious tradition
regarding how to serve and teach over another.
Further, a "ministerial exception" limited to activities that a court perceives to be sufficiently religious
creates incentives for organizations to include more
distinctly religious content in the duties of their employees. In the preceding example, the organization

would be well advised to add distinctly religious duties
such as prayer and Bible teaching to the employee's
position. Doing so would strengthen the argument
that the position qualifies for the "ministerial exception" under a religiosity test, even though the position
would, ironically, be less faithful to the organization's
religious tradition.
In short, a religiosity test which requires government officials to determine whether an activity or job
duty is sufficiently religious sets government officials
adrift in a sea of subjective religious determinations
which they have no competence or authority to navigate. Such a test will inevitably produce arbitrary and
discriminatory results.
C. Courts cannot exclude functions merely
because they are similar to secular or
commercial activities.
The religiosity test rests on a premise that would
effectively secularize a vast array of religious activity.
Under this test, six of the Ten Commandments (honor
your parents and do not murder, steal, lie, covet or
commit adultery —Exodus 20:2-17) may no longer be
considered religious because they have been widely
embraced by society. Similarly, religious organizations
formed to fulfill these particular Commandments may
not be deemed to be religious. The same result may
apply to religious humanitarian organizations, soup
kitchens, hospitals, and educational institutions. Indeed,applying this position, Mother Theresa's activities

~1

to serve the poor out of obedience to God may not qua1=
ify as a religious activity.
The Third Circuit in Leboon v. Lancaster Jewish
Community Center Assn, 503 F.3d 217 (3d Cir. 2007),
rejected an argument that a Jewish Community Centerwas not a religious organization because it promoted
principles, such as tolerance and healing the world,
which are shared by nonreligious persons. The court
held that "[a]lthough the [community center] itself
acknowledges that some of these principles exist outside Judaism,to the extent that [the community center]
followed them as Jewish principles this does not make
them any less significant." Leboon,503 F.3d at 230.
The court in University of Great Falls also rejected
this premise, affirming that a litany of"secular" characteristics of the University:
...says nothing about the religious nature of
the University. Neither does the University's
employr~~e~at of non-Catl~olic; faculty a~~d admission of non-Catholic students disqualify it
from its claimed religious character. Religion
may have as much to do with why one takes an
action as it does with what action one takes.
That a secular university might share some
goals and practices with a Catholic or other
religious institution cannot render the actions
of the latter any less religious.... If the University is ecumenical and open-minded, that
does not make it any less religious, nor NLRB
interference any less a potential infringement
of religious liberty.
278 F.3d at 1346(emphasis added).

More recently, this Court unanimously held that a
teacher qualified as a minister even though her primary duties consisted of teaching secular subjects. In
rejecting the federal government's argument that the
religious exemption at issue in the case should be limited to employees engaged in "exclusively religious
functions," the Court observed:
Indeed, we are unsure whether any such employees exist. The heads of congregations
themselves often have a mix of duties,including secular ones such as helping to manage
the congregation's finances,supervising purely
secular personnel, and overseeing the upkeep
of facilities.
Hosanna-Tabor, 132 S.Ct. 694, 708-09. Similarly, this
Court has held that afor-profit corporation may exercise religion through commercial activities. Hobby
Lobby, 134 S.Ct. at 2771. In Hobby Lobby, this Court
held that the company exercises religion because its
"statement of purpose proclaims that the company is
committed to :..Honoring the Lord in all we do by operating ... in a manner consistent with Biblical principles."Id.
These cases affirm that the purposes and activities
of a religious organization are no less religious merely
because others may embrace similar purposes or conduct similar activities for nonreligious reasons. The
same applies for the duties of employees ofsuch organizations. To hold otherwise would mean that those
religious organizations which are called to serve tangible human needs would be required to sacrifice their

29
religious character in order to fulfill their calling. Such
a result trivializes religious liberty.
D. Courts can inquire into whether the organization's representations regarding
a position's role in the organization's
religious exercise are bona fide.
The question for "ministerial exception" purposes
should not be whether a position is "sufficiently religious" as measured by a court's assessment of the religious significance of the position's duties, or whether it
aligns with a particular model of ministry leadership.
The question instead should be whether the organization's representations regarding the role ofthe position
in the organization's religious exercise or expression
are bona fide.
To determine whether a position includes functions to define, exercise or express religious beliefs,
government officials cannot (and need not) independently weigh the religious significance of various
duties of the position. But they can independently determine whether an organization's asserted functions
for the position are merely a sham,or whether there is
at least a plausible connection between the position's
duties and the organization's religious exercise.
In U.S. v. Ballard, 322 U.S. 78 (1944), this Court
held that although courts cannot inquire into whether
an individual's asserted religious beliefs are true, they
can inquire into whether the individual honestly and
in good faith actually holds such beliefs. Similarly, in

30
Hobby Lobby,this Court noted that, under the applica~
ble exemption,"a corporation's pre-textual assertion of
a religious belief in order to obtain an exemption for
financial reasons would fail." Burwell v. Hobby Lobby,
134 S.Ct. at 2751, 2774 n.28 (2014). This Court observed that Congress was confident ofthe ability ofthe
federal courts to weed out insincere claims.Id. at 2774;
see also Hosanna-Tabor, 132 S.Ct. at 711 (Thomas, J.,
concurring) (concluding that the plaintiff should be
treated as a minister because the evidence demonstrated that the church sincerely considered her a minister).
As these cases suggest, although the First Amendment limits governmental inquiry regarding religious
matters,it does not preclude government officials from
determining whether an organization is making false
statements regarding its religious beliefs. Accordingly,
government officials can examine an organization's activi~ies, b~zt only-for the limited purpose of verz£~~ing
that its representations are bona fide and sincerely
held.3
For example,the court in University of Great Falls
held that the religious character of an organization
may be determined by confirming that the organization holds itself out to the public as a religious
3 To the extent specific duties or activities are relevant to a
bona fide inquiry, it should be clear that the religious character of
a duty turns on the purpose for which the duty is performed. See,
e.g., Widmar v. Vincent, 454 U,S. at 271 n.9 (explaining that the
distinction between religious and nonreligious speech is based on
the purpose of such speech).

31
organization. 278 F.3d at 1344. Similarly, government
officials could inquire into whether an organization
has consistently asserted a bona fide role for the position in its religious exercise, or whether it is opportunistically asserting such a role merely to claim the
"ministerial exception."

CONCLUSION
For the reasons set forth above, amid respectfully request this Court to hold that the "ministerial
exception" applies to any position that contributes to
the definition, exercise or expression of the religious
beliefs of a religious employer. In addition, this Court
should avoid a formulation of the "ministerial exception" that invites courts to inquire into the religiosity
of various job functions. On this basis, the decision of
the Ninth Circuit should be reversed.
Respectfully submitted,
STUART rT. LARK

Counsel ofRecord
SHERMAN Ba HOWARD L.L.C.

90 S. Cascade Ave., Suite 1500
Colorado Springs, CO 80903
(719)448-4036
slark@shermanhoward.com
Attorney for Amici Curiae

